                            Office of the Inspector General

September 19, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Procedures for Verifying Evidentiary Documents Submitted with Original Social Security
Number Applications (A-08-98-41009)


The attached final report presents the results of our audit. Our objective was to
determine whether the Social Security Administration’s procedures for examining
evidentiary documents are effective in ensuring the proper assignment of original Social
Security numbers by field offices.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                            James G. Huse, Jr.


Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     PROCEDURES FOR VERIFYING
       EVIDENTIARY DOCUMENTS
      SUBMITTED WITH ORIGINAL
          SOCIAL SECURITY
       NUMBER APPLICATIONS

   September 2000   A-08-98-41009




AUDIT REPORT

                   EXECUTIVE SUMMARY


OBJECTIVE

The objective of the audit was to determine whether the Social Security Administration’s
(SSA) procedures for examining evidentiary documents are effective in ensuring the
proper assignment of original Social Security numbers (SSN) by field offices (FO).

BACKGROUND

One of the key elements SSA employs to effectively administer the Nation's Social
Security system is the SSN. SSA refers to the process of assigning SSNs to United
States workers and Social Security beneficiaries as enumeration.1 The magnitude of
SSA’s enumeration area and the importance placed on SSNs in today’s society
provides a tempting motive for many unscrupulous individuals to fraudulently acquire a
SSN and use it for illegal purposes.

In May 1999, we issued a Management Advisory Report (MAR), Using Social Security
Numbers to Commit Fraud (A-08-99-42002), in which we outlined the role SSNs play in
the commission of identity fraud crimes. In that report, we also described several SSN
fraud cases that highlighted some of the vulnerabilities in SSA’s enumeration process,
including vulnerabilities within SSA’s document verification process. In response to that
report, SSA confirmed its continued strong commitment to eliminating opportunities for
fraud in the Agency’s enumeration process. Additionally, the Commissioner of Social
Security stated the Agency had “ . . . begun a thorough reevaluation of our direction and
progress in making planned enhancements to the enumeration process.” The
Commissioner further stated “The Agency’s ultimate goal is to prevent fraud. Essential
to that goal is ending SSA’s dependence on documents which might be forged or
misused by the dishonest in a fraudulent attempt to acquire an SSN.”

SSA has implemented and is planning several initiatives designed to address the use of
fraudulent documents in obtaining SSNs. For example, SSA is negotiating the
Enumeration at Entry program with the United States Immigration and Naturalization
Service (INS) and the United States Department of State. Under this program, INS and
the State Department will collect enumeration data from aliens entering the United
States. This report serves as a sequel to the MAR, provides additional
recommendations, and reaffirms some previous recommendations that we believe will
improve the integrity of SSA’s enumeration process.


1
 The enumeration area also includes the issuance of replacement cards to people with existing numbers
and verification of SSNs for employers and other Federal agencies.



                                                  i
SCOPE AND METHODOLOGY

From September 1, 1997 through February 28, 1998, SSA assigned 2.66 million original
SSNs. To accomplish our objectives, we obtained a data extract from SSA’s
Modernized Enumeration System (MES) Transaction History File of original SSNs the
Agency assigned during the 6-month period. From this universe, we identified
addresses to which SSA sent 10 or more SSN cards. This population totaled
1,448 addresses and 35,209 SSN cards. We then selected a sample of 90 addresses
to which SSA sent 5,385 SSN cards. Due to time constraints, we only reviewed 3,557
of the SSNs sent to these locations. For each of the selected SSNs, we attempted to
obtain independent verification of the evidence presented.

As part of this audit, we also visited 11 SSA FOs to observe and discuss documentation
verification procedures. Additionally, we reviewed relevant laws, regulations and SSA
policies related to SSA’s enumeration process.

RESULTS OF REVIEW

Of the 3,557 original SSNs we reviewed, 999 (28 percent) were based on invalid/
inappropriate evidentiary documents. As such, these SSNs should not have been
assigned. We acknowledge this sample was neither statistically selected nor indicative
of the percentage of possible errors within the universe of 2.66 million original SSNs
assigned during the audit period. However, the results of our review provide insight
regarding significant vulnerabilities within SSA’s enumeration system. Despite SSA’s
efforts to address these vulnerabilities, the Agency’s controls do not prevent individuals
from improperly attaining SSNs with fraudulent evidentiary documents.

It is uncertain how the 999 improperly obtained SSNs have been used. However, we
know that 387 (39 percent) of the number holders have used the SSNs to work in the
United States, reporting over $4.4 million in earnings. We found no earnings posted to
the remaining 612 (61 percent) SSNs. Therefore, these individuals improperly attained
the SSNs for other purposes. We presume identity fraud is at the top of the list.

Given the technological advances in today’s society, motivated individuals counterfeit
official documents with surprising accuracy. To effectively combat these criminals and
reduce the occurrences of fraudulent SSN attainment, SSA must employ effective
front-end controls in its enumeration process. As noted by Congress and other Federal
agencies, the SSN plays an integral role in the commission of identity fraud crimes.
Unfortunately, once a SSN is assigned, regardless of whether it is later learned the SSN
was fraudulently obtained, the number can be used as a “breeder document” to commit
further crimes. Therefore, detecting fraudulent SSN applications and evidentiary
documents before the SSNs are assigned is an essential step in reducing the number of
identity fraud crimes.




                                             ii
As we reported in our MAR, we understand the Agency has a difficult task in balancing
customer service and security. However, we believe the Agency has a duty to the
American public to safeguard the integrity of SSNs. With the increased incidences of
SSN misuse and the significant societal impact of these cases, we believe it would be
more responsible for the Agency to err in favor of security rather than quick service. We
understand the implications of such measures and acknowledge the strides SSA has
already made to address this issue. However, as we have previously reported and as
evidenced by this report, we believe additional controls should be implemented.

IMPROVED PROCEDURES ARE NEEDED FOR DETECTING FALSE DOCUMENTS
PRESENTED WITH SSN APPLICATIONS

Of the 3,557 SSNs we reviewed, SSA assigned 999 (28 percent) based on invalid/
unacceptable evidentiary documents. Specifically, these SSN applicants presented
false or inappropriate documents to provide evidence of their age, identity, United
States citizenship or legal alien status. The invalid documents included INS forms that
INS reported to us it had

    �   never issued,

    �   issued to individuals other than the SSN applicants, or

    �	 issued with different alien classifications than shown on the documents provided
       to SSA.2

Additionally, SSA assigned unrestricted numbers (that is, work authorized SSNs) to
noncitizen applicants who INS reported did not have the required work authorization.
Finally, SSA assigned SSNs to applicants whose United States birth certificates were
counterfeit.

We believe these occurrences indicate significant weaknesses within SSA’s document
verification process that must be addressed to reduce the frequency of SSN misuse
cases. Based on our observations at SSA FOs and our analysis of the selected SSNs,
we identified the following vulnerabilities that may have resulted in the acceptance of
invalid evidentiary documents.

�	 SSA employees do not have adequate tools (for example, real-time on-line
   verification mechanisms) to determine the validity of evidentiary documents.




2
 We did not determine the reliability of information provided by INS, the State Department or respective
State Bureaus of Vital Statistics.



                                                    iii
�	 Current MES controls do not prevent the assignment of SSNs in certain suspect
   circumstances (for example, multiple SSN cards sent to common addresses, parents
   claiming to have had an improbably large number of children).3

�	 SSA’s emphasis on customer service discourages personnel from employing
   security measures that might detect fraudulent documents.

CONCLUSIONS AND RECOMMENDATIONS

As we outlined in our MAR, we believe SSA must make both philosophical and
procedural changes to ensure the integrity of the enumeration function. We recognize
these recommendations may affect the amount of time necessary to process original
SSN applications. However, if SSA intends to fully address the issues of fraudulent
SSN attainment and use, we believe these are investments the Agency should make.

We recommend that SSA:

�	 Obtain independent verification from the issuing agency for all alien evidentiary
   documents before approving the respective SSN applications, until the Enumeration
   at Entry program is implemented.

�	 Accelerate negotiations with INS and the State Department to implement the
   Enumeration at Entry program. Once implemented, all non-citizens should be
   required to obtain their SSNs by applying at one of these Agencies.

�	 Give credit for fraud detection and development in measuring the performance of
   FOs and their employees.

�	 Continue efforts and establish an implementation date for planned system controls
   that will interrupt SSN assignment when multiple cards are mailed to common
   addresses not previously determined to be legitimate recipients (for example,
   charitable organizations) and/or when parents claim to have had an improbably large
   number of children.

�	 Study the impact of requiring SSN applicants to either provide an actual street
   address (that is, do not accept Post Office boxes) or pick up their SSN cards at the
   closest SSA FO.

�	 Propose legislation that disqualifies individuals who improperly attain SSNs from
   receiving work credits for periods that they were not authorized to work or reside in
   the United States.




3
  SSA has formed a workgroup whose mission is to identify MES enhancements that would address these
circumstances. As of March 2000, the workgroup was still working to implement proposed improvements.


                                                 iv
Recommendations 1 and 2 were also in our previous MAR. We are including them in
this report because we either disagree with SSA’s final response to the
Recommendation or believe SSA should repeat the action. Our justifications are
presented in the following paragraphs.

In response to Recommendation 1, SSA stated that obtaining independent verification
of every document presented by an alien before assigning an SSN is unnecessary, too
burdensome, and would delay the receipt of SSNs for most legitimate applicants.
Instead, SSA stated it would work with INS to reduce the delay in verifying the
documents on-line. SSA stated its document verification procedures were adequate.
We believe SSA should reconsider its response to this Recommendation. We
recognize this corrective action would increase SSA and INS’ workloads and result in
the delay of SSN cards for many legitimate applicants. Unfortunately, the Agency has
presented no alternative remedy that could timely and adequately address the issue of
fraudulent alien documents presented with SSN applications. Additionally, we believe
a delay in the receipt of SSNs for many noncitizens will be inevitable under the
Enumeration at Entry program, unless INS makes extensive changes in its processes.
In summary, based on the results of this review, we continue to believe the
vulnerabilities within SSA’s enumeration system are significant. As such, we believe
this investment is essential to ensure the future integrity of the SSN and Social Security
system.

In response to Recommendation 2, on August 13, 1999, the Commissioner of SSA
issued a letter to the Commissioner of INS. This letter requested INS’ cooperation in
implementing the Enumeration at Entry program. SSA’s Commissioner outlined the
magnitude of the issue and encouraged the INS Commissioner to execute the
necessary Memorandum of Understanding (MOU). To our knowledge, INS has not
responded to the letter and has not signed the MOU.

AGENCY COMMENTS

In its response to our report, SSA stated it shared our commitment to eliminating
opportunities for SSN fraud. SSA pointed out that, as a result of our May 1999 MAR, it
had already undertaken several initiatives to strengthen its SSN fraud prevention
measures. SSA stated it viewed the Office of the Inspector General (OIG) findings very
seriously and agreed it must remain vigilant in situations where multiple SSN cards are
issued to a common address. However, the Agency did caution that it would be
inappropriate to extrapolate the findings to the larger universe of SSN card recipients.
Specifically, SSA pointed out that the 90 addresses reviewed were not randomly
selected, and some were specifically reviewed because of the appearance of suspect
circumstances.

To combat our concerns regarding evidentiary documentation, SSA stated it is
developing a long-term solution. Although the Agency agrees with the intent of our
recommendations, for the long-term, SSA believes systems enhancements, rather than



                                            v
independent verifications, will provide the most benefit. SSA’s comments on specific
report recommendations are as follows.

SSA agreed to accelerate negotiations with INS and the State Department to implement
the Enumeration at Entry program (Recommendation 2). In fact, SSA, INS, and the
Office of Management and Budget met June 16, 2000 to resolve any remaining
concerns INS had so the program may be implemented may occur. SSA also agreed to
establish an implementation date for planned system improvements that interrupt SSN
assignment in certain suspect circumstances. Because of the nature of the data base
building and revision that will be required, SSA expects to have these controls in place
by April 2002.

SSA is also developing better methods of tracking fraud detection and development
activities that will support establishing workload credit for this activity
(Recommendation 3). The Allegation Management System (AMS) will track fraud
referrals and will provide accurate workload counts that are needed, in conjunction with
future work sampling, to establish time spent on development of fraud cases. SSA
plans to implement AMS in October 2001.

SSA disagreed with our recommendation to obtain independent verification from the
issuing Agency for all alien evidentiary documents before approving the respective SSN
applications, until the Enumeration at Entry program is fully implemented. SSA stated it
already verifies with INS all documents for noncitizens applying for SSNs, except
documents for noncitizens who have been in the country less than 30 days. The
Agency also responded that, while it is committed to reducing fraud, it has an obligation
to newly-arrived citizens who have legal authority to work. SSA believes that delaying
approval of their SSN applications for 1 to 2 months until INS can verify their
applications would result in a grave disservice to these individuals. Instead, the Agency
stated that it would continue to work with INS to shorten the lag time needed to update
INS systems and have INS collect enumeration data. Additionally, SSA recommended
the OIG conduct a statistically-valid follow-up study focusing on the entire population of
aliens issued original SSNs.

SSA also disagreed with our recommendation that the Agency study the impact of
requiring SSN applicants to either provide an actual street address (that is, do not
accept Post Office boxes) or pick up their SSN at the closest FO (Recommendation 5).
SSA stated that it had analyzed the issue and concluded that with the postal
requirement in many smaller communities that all residences have a postal box,
implementation of this recommendation would be targeting and treating unfairly
legitimate users of post office boxes. Additionally, SSA responded that, to prevent
fraudulent activity relating to post office boxes, in 1998 the Postal Service began
requiring photo identification of individuals applying for the boxes. Additionally, in
October 1999, the Postal Service implemented a regulation requiring an individual
applying to receive mail at a commercial mail receiving agency to provide two forms of
identification, one of which must include a photograph of the applicant.




                                            vi
Finally, SSA disagreed with our recommendation to propose legislation that disqualifies
individuals who improperly attain SSNs from receiving work credits for periods they
were not authorized to work or reside in the United States (Recommendation 6). SSA
stated that the legislative proposal would be extremely difficult to administer because
SSA cannot, on its own, determine when or if an individual’s immigration or work status
has changed. SSA believed that these determinations could be made only by INS or in
a court.

SSA also provided technical comments that were considered and incorporated, where
appropriate, in this final report. The full text of SSA’s comments is included in
Appendix D.

OIG RESPONSE

We are encouraged by the actions SSA has planned to address three of the
six recommendations (Recommendations 2, 3, and 4). Additionally, although the
Agency responded that it disagreed with Recommendation 5, we believe SSA
completed the proposed action. Specifically, SSA studied the impact of requiring SSN
applicants to either provide an actual street address (that is, do not accept Post Office
boxes) or pick up their SSN cards at the closest SSA FO. The results of the Agency’s
analysis indicate that such an action would neither be practical nor beneficial. We
accept SSA’s conclusion and believe the Agency has adequately responded to our
recommendation.

Although we acknowledge SSA’s concerns with Recommendations 1 and 6, we do not
agree with the Agency’s positions. We continue to believe the vulnerability within SSA’s
enumeration process regarding the possible acceptance of counterfeit alien documents
is significant enough to warrant the verification of such documents. Additionally, we
believe a delay in the receipt of SSNs for many noncitizens will be inevitable under the
Enumeration at Entry program, unless INS makes extensive changes in its processes.
In its response, SSA requested that the OIG conduct a statistically valid follow-up study
to determine the extent of potential fraud in the entire population of SSNs issued to
aliens. We believe SSA’s focus should be on developing a corrective action plan to
address this fraud vulnerability. A study would complement a corrective action plan only
if it addressed specific weaknesses in its process rather than solely determining the
extent of potential fraud. In our view, the recommendations included in this report and
our previous MAR4 satisfactorily address the specific weaknesses identified in SSA’s
procedures for verifying evidentiary documents. As such, another study would be
redundant. Once again, we encourage SSA to reconsider its response to
Recommendation 1.




4
    Using Social Security Numbers to Commit Fraud (A-08-99-42002), May 1999.


                                                  vii
We also disagree that the implementation of our legislative proposal would be extremely
difficult to administer. It is our view that it is the responsibility of the number holder to
amend their SSN record if he or she subsequently became eligible to reside and/or work
in the United States. In summary, we believe that if the holder of a fraudulently attained
SSN applies for SSA benefits, he or she should be required to prove that they have
sufficient work credits as a legal worker in the United States before those benefits are
approved. We also encourage SSA to reconsider its response to Recommendation 6.




                                             viii
                           TABLE OF CONTENTS


                                                                                                                         Page

INTRODUCTION .................................................................................................................1

RESULTS OF REVIEW .....................................................................................................7

     IMPROVED PROCEDURES ARE NEEDED FOR DETECTING FALSE
     DOCUMENTS PRESENTED WITH SSN APPLICATIONS....................................8

�    What Are Some Examples of Improperly Attained SSNs? .....................................9

�    How Are Fraudulent Documents Slipping Through the System? ........................14

CONCLUSIONS AND RECOMMENDATIONS ...........................................................18

APPENDICES

APPENDIX A – Evidentiary Documents Submitted with Original Social Security Number
             Applications

APPENDIX B – Sample Selection Methodology and Review Steps

APPENDIX C – Field Offices Visited

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgements

APPENDIX F – SSA Organizational Chart
                         INTRODUCTION


OBJECTIVE

The objective of the audit was to determine whether the Social Security Administration’s
(SSA) procedures for examining evidentiary documents are effective in ensuring the
proper assignment of original Social Security numbers (SSN) by field offices (FO).

BACKGROUND

One of the key elements SSA employs to efficiently administer the Nation's Social
Security system is the SSN. As mandated in 1935 by title II of the Social Security Act,
SSA must maintain records of wage amounts that employers pay to individuals. To
facilitate this responsibility, in 1936, SSA created SSNs as a method of maintaining
individual earnings records and issued workers cards as a record of their SSN. SSA
refers to the process of assigning SSNs to United States workers and Social Security
beneficiaries as enumeration.

SSA statistics show that approximately 277 million individuals have SSNs. The
magnitude of the enumeration area and the importance placed on SSNs today provide a
tempting motive for many unscrupulous individuals to fraudulently acquire a SSN and
use it for illegal purposes. Almost every day, national and local news organizations
report on crimes that are committed using stolen or fraudulent SSNs. These crimes not
only affect the Government’s ability to administer programs, they affect individual
citizens’ attempts to receive and maintain satisfactory credit ratings as well as obtain
other Federal and private benefits.

In May 1999, we issued the Management Advisory Report (MAR), Using Social Security
Numbers to Commit Fraud, in which we outlined the role SSNs play in the commission
of identity fraud crimes. In that report, we also described several SSN fraud cases that
highlighted some of the vulnerabilities in SSA’s enumeration process, including
vulnerabilities within SSA’s document verification process. In response to that report,
SSA confirmed its continued strong commitment to eliminating opportunities for fraud in
the Agency’s enumeration process. Additionally, the Commissioner of Social Security
stated the Agency had “ . . . begun a thorough reevaluation of our direction and
progress in making planned enhancements to the enumeration process.” The
Commissioner further stated “The Agency’s ultimate goal is to prevent fraud. Essential
to that goal is ending SSA’s dependence on documents which might be forged or
misused by the dishonest in a fraudulent attempt to acquire an SSN.”

This report serves as a sequel to the MAR, provides additional recommendations, and
reaffirms some previous recommendations that we believe will improve the integrity of
SSA’s enumeration process.

                                            1
HOW DOES SSA ASSIGN ORIGINAL SSNs?

When an individual applies for an original SSN, he or she must first complete, sign and
submit an Application for a Social Security Card (Form SS-5) to an SSA FO. 1, 2 SSA
requires the applicant to provide acceptable documentary evidence of (1) age,
(2) identity, and (3) United States citizenship or lawful alien status. 3 Appendix A
contains more detailed information regarding the types of documents permitted as
evidence. Upon submission, the FO employee then enters applicant information and a
description of the evidence presented into the Modernized Enumeration System
(MES). 4

If, after reviewing the application and supporting evidentiary documentation, the
employee believes the documents and information are valid, he or she certifies the
application for overnight validation. 5 Once entered and certified in MES, the SSN
application undergoes numerous automated edits. For example, SSA programs
compare the applicant’s name and date of birth with existing SSN records to ensure the
Agency has not previously assigned a SSN to the individual. If the application passes
all of these edits, MES issues a SSN card. The following illustration provides a general
overview of this process.




1
  Most applicants may either mail the application and supporting documents to an SSA FO or personally
visit the office. However, according to SSA’s Programs Operations Manual System (POMS), sections
RM 00202.055A and RM 00203.001A, if the individual is age 18 or over, he or she must present the
application in person and must participate in an interview with FO personnel.
2
    POMS, section RM 00202.001A.
3
    POMS section RM 00203.001A.
4
 POMS section RM 00202.255 and Modernized System Operations Manual Chapters 301-C-5 and
302-A-6.
5
    POMS section RM 00202.260A.



                                                  2
   Illustration 1: How Does SSA Assign Original SSNs?




                     Application/Presentation
                    of Evidentiary Documents




                                Certification




Validation




       Service Delivery




                           3

HOW DOES SSA VERIFY EVIDENTIARY DOCUMENTS?

In examining evidence, SSA guidelines encourage employees to compare documents
provided by SSN applicants with characteristics of valid documents and to be alert for
alterations and erasures. 6 SSA has equipped employees with certain tools with which
they can verify the validity of documents. Specifically, SSA provides employees copies
of guides that provide examples of authentic documents, such as the Administrative
Confidential Memorandum for documents issued by the United States Immigration and
Naturalization Service (INS). SSA guidelines require personnel to reference the guide
and then view INS documents under a black light to ascertain whether they conform to
the special identification checkpoints and fluoresce.7

If an alien has been in the United States for 30 or more days, SSA policies require the
use of another mechanism to verify documents. Specifically, each FO must verify INS
documents submitted via INS’ Systematic Alien Verification for Entitlements (SAVE)
system. 8 Each FO has online access to SAVE’s Alien Status Verification Index (ASVI)
database. When INS has assigned the applicant an alien registration number (or “A”
number), FO personnel enter the “A” number in ASVI. They then compare the data INS
has on record for the individual with information provided by the SSN applicant (that is,
the applicant’s status in the United States). When the alien does not have an “A”
number, FO personnel complete a paper form and mail it to INS for verification of the
INS document and INS information regarding the individual’s status. When the INS
response is returned, the information provided by INS is compared to the information
provided by the SSN applicant.9

If through any of these examinations, a question arises regarding the validity of the
documents, SSA requires personnel to enter the application in MES and code the
evidence blocks with either an “S” for suspect documents or an “F” for known fraudulent
documents. These indicators will prevent the processing of subsequent SSN
applications by the applicant, whether submitted to the same or a different FO. A
suspect application will remain pending on MES until either the issuing Agency verifies
the evidence and FO personnel clear the application or 120 days passes—at which time
the application is deleted. If the issuing Agency reports that the evidence is fraudulent,
FO personnel change the code from “S” to “F,” and MES add the application to the
disallowed file where it is permanently maintained.10



6
    POMS section RM 00203.040.
7
    POMS section RM 203.720.
8
  The INS ASVI database is commonly referred to as only "SAVE," we have used this term throughout the
remainder of this audit report.
9
    POMS section RM 00203.740.
10
     POMS section RM 00202.237.


                                                  4
WHAT IS SSA DOING TO ADDRESS THE FRAUDULENT ATTAINMENT OF SSNs?

In its annual Strategic Plan, SSA has included the goal of making “SSA program
management the best in the business, with Zero Tolerance for Fraud and Abuse”
(emphasis added). In line with this policy, SSA has implemented several initiatives
designed to address the fraudulent attainment of SSNs. Some of the Agency’s current
and planned initiatives include the following.

�	 Age 18 and Over Procedures: SSA implemented unique procedures for processing
   original SSN applications submitted by individuals age 18 years or older. These
   procedures are designed to locate a previously assigned SSN, if the applicant has
   one, and prevent the assignment of a SSN to someone assuming a false identity.

�	 Collection of Enumeration Data by INS and the State Department: SSA, INS and
   the United States Department of State are working on agreements that will enable
   INS and the State Department to collect enumeration data from aliens entering the
   United States. Although SSA will still process the SSN applications, the Agencies
   believe this initiative will significantly reduce the possibility of SSA accepting
   counterfeit documentation and will eliminate duplicate contacts that aliens now must
   make to obtain SSNs.

�	 Comprehensive Integrity Review Program: In March 1999, SSA began using a new
   version of one of its integrity software programs. Among other features, the
   automated system identifies instances in which five or more SSN cards are sent to
   the same address within a 5-week period. This system generates alerts to the SSA
   FOs for preliminary investigation.

�	 SSA Access to State Records On-line: SSA is working with States through the
   National Association of Public Health Statistics and Information Systems to allow
   FOs on-line access to State vital records data. Implementation of this initiative is
   contingent on obtaining agreements with all of the States and jurisdictions first for
   accessing in-State data and then separate agreements so data can be shared
   across State lines. However, once implemented, FOs will be able to verify all United
   States birth certificates presented with SSN applications.

�	 Access to INS’ Nonimmigrant Index System (NIIS): SSA and INS are working to
   provide all FOs on-line access to INS’ NIIS. This system will allow SSA personnel to
   verify documents submitted by non-immigrants. Currently, SSA can only verify
   documents submitted by immigrants with alien registration numbers through SAVE.

�	 More Preventive Controls Within MES: In response to the OIG MAR, SSA
   established a workgroup tasked with identifying enhancements that could be made
   in MES to address two fraud-prone situations: (1) when parents allege having an
   improbably large number of children and (2) when SSA sends a large number of
   SSN cards to the same address. As of March 2000, the workgroup was working to
   finalize and implement its recommendations.


                                           5
SCOPE AND METHODOLOGY

To accomplish our objectives, we selected 90 addresses to which SSA sent
5,385 original SSN cards between September 1, 1997, and February 28, 1998. To
select the sample, we obtained a data extract from SSA’s MES Transaction History File.
SSA assigned 2.66 million original SSNs during the 6-month period. From this
universe, we identified addresses to which SSA sent 10 or more SSN cards. This
population totaled 1,448 addresses and 35,209 SSNs. We then selected 90 addresses
and 3,557 of the 5,385 SSNs sent to these locations. For each of the selected SSNs,
we attempted to obtain independent verification of the evidence presented. More
specific descriptions of our sample selection methodology and review steps are
contained in Appendix B.

We also visited 11 SSA FOs to observe and discuss documentation verification
procedures (Appendix C). We selected these FOs because they processed SSN
applications for some of the addresses appearing in our population. Additionally, we
selected six of the offices because they had a large alien customer base.11

We reviewed relevant laws, regulations and policies related to SSA’s enumeration and
document verification process. We performed our audit work at SSA Headquarters in
Baltimore, Maryland, and the SSA FOs listed in Appendix C. We completed our audit
field work between April 1998 and February 2000.12 We conducted our audit in
accordance with generally accepted government auditing standards.




11
  Because many of the SSNs appearing in our sample were for alien applicants, we wanted to discuss
and observe the FOs procedures for verifying INS evidentiary documents.
12
  Our audit work was delayed because it took INS 1 year to verify the validity of documents submitted by
approximately 1,400 of the SSN applicants in our sample.


                                                   6
                   RESULTS OF REVIEW


Of the 3,557 original SSNs we reviewed, 999 (28 percent) were based on
invalid/inappropriate evidentiary documents. As such, these SSNs should not have
been assigned. We acknowledge that this sample was neither statistically selected nor
indicative of the percentage of possible errors within the universe of 2.66 million original
SSNs assigned during the audit period. Nevertheless, the results of our review provide
insight regarding significant vulnerabilities within SSA’s enumeration system. Despite
SSA’s efforts to address these vulnerabilities, its controls do not prevent the improper
attainment of SSNs with fraudulent evidentiary documents.

It is uncertain exactly how the 999 improperly obtained SSNs have been used.
However, we know 387 (39 percent) of the number holders have used the SSNs to work
in the United States, reporting over $4.4 million in earnings. We found no earnings
posted to the accounts of the remaining 612 (61 percent) SSNs. Therefore, these
individuals improperly attained the SSNs for other purposes. We presume identity fraud
is at the top of the list.

Given the technological advances in today’s society, motivated individuals can
counterfeit official documents with surprising accuracy. To effectively foil the efforts of
these individuals and reduce the occurrences of fraudulent SSN attainment, SSA must
employ effective front-end controls in its enumeration process. As noted by Congress
and other Federal agencies, the SSN plays an integral role in the commission of an
identity fraud crime. Unfortunately, once a SSN is assigned, regardless of whether it is
later learned the SSN was fraudulently obtained, the number can be used as a “breeder
document” to commit further crimes. Therefore, detecting fraudulent SSN applications
and evidentiary documents before the number is assigned is an essential step in
reducing the number of identity fraud crimes.

As we reported in our MAR, we understand the Agency has a difficult task in balancing
customer service and security. However, we believe the Agency has a duty to
safeguard the integrity of SSNs. With the increased incidences of SSN misuse and the
significant societal impact of these cases, we believe it would be more responsible for
the Agency to err in favor of security rather than quick service, particularly in cases that
have a high vulnerability for fraud (for example, alien documents.) We understand the
implications of such measures and acknowledge the strides SSA has already made to
address this issue. However, as we have previously reported and as evidenced by this
report, we believe additional controls should be implemented.




                                             7
IMPROVED PROCEDURES ARE NEEDED FOR DETECTING FALSE DOCUMENTS
PRESENTED WITH SSN APPLICATIONS

Of the 3,557 SSNs reviewed, SSA assigned 999 (28 percent) based on
invalid/unacceptable evidentiary documents. As shown in the following Table, these
documents included INS forms that INS reported it (1) never issued, (2) issued to
individuals other than the applicable SSN applicants, or (3) issued with a different alien
classification than shown on the document provided to the SSA FO. Additionally, SSA
assigned SSNs to non-citizen applicants who INS reported did not have required work
authorization documents. Finally, SSA assigned SSNs to applicants whose United
States birth certificates were not authentic.

                           Table 1: Summary of Invalid Documents


     Category of Invalid/Inappropriate Documents                             Number of SSNs

Alien Registration Number Presented to SSA Never                                      16513
Issued by INS

Alien Registration Number Presented By SSN Applicant                                  20814
Belonged to Another Person

INS Has Either No Record of Alien Applicant’s Entry to                                 381
the United States or No Record of Entry at the Time of
SSN Application

INS Records Indicate the Applicant Entered the United
States With A Different Status Than Shown on the                                        58
Documents Presented (that is, as a Non-immigrant Visitor
Not Allowed to Work/Receive a SSN)

INS Records Indicate the Applicant Never Obtained                                      131
Employment Authorization Required to Qualify for SSN

State Bureau of Vital Statistics Records Could Not                                      56
Authenticate Applicant’s Birth Certificates

TOTAL                                                                                  999



12
   These alien registration numbers were verified through SAVE. We did not request that INS check other
files the Agency may have.
14
  These alien registration numbers were also verified through SAVE. We did not request that INS check
other files the Agency may have.


                                                   8
What Are Some Examples of Improperly Attained SSNs?

Although we did not focus on SSNs assigned to non-citizens when selecting our
sample, 86 of the 90 addresses selected received SSNs almost entirely for non-citizens.
Accordingly, most cases of improperly attained SSNs involved counterfeit INS
documents. Additionally, we encountered two employee fraud schemes as well as
parents applying for SSNs on behalf of non-existent children. The following sections
provide general descriptions of some of the categories of applicants and resulting
cases.

Non-immigrant Applicants

Non-immigrants are citizens of other countries who are temporarily authorized to be in
the United States for a specific purpose. Depending on their class of admission, some
may be permitted to work while they are in the United States. As such, SSA personnel
must review INS “admission classifications” to determine whether non-immigrants are
eligible for a SSN. INS agents typically hand write this information on an
Arrival/Departure Record (I-94). All aliens legally entering the United States complete
an I-94. After an entry interview, an INS agent places an admission stamp on the I-94
then initials, dates, and, for non-immigrants, writes the alien’s admission class on the
document.

                                Exhibit 1: I-94, Arrival/Departure Record

Because I-94s (1) are

issued to all aliens and

widely available,

(2) contain no

identification elements

(for example, picture),

and (3) have only an INS

admission stamp and the

agent’s handwritten

assertion as to the

alien’s admission class,

the documents are easily

counterfeited. SSA has

no instantaneous

method of determining

the validity of these

documents other than

through visual

inspection. As

evidenced through the

following cases, visual inspection is not always sufficient to detect fraudulent I-94s and

thereby prevent the assignment of SSNs to ineligible applicants.




                                             9
�	 289 University Students Presented Invalid Documents. During our audit period, SSA
   sent SSN cards to 369 individuals, many of whom claimed to be non-immigrant
   students of 1 university, to 10 locations in a major west coast city. Some of these
   locations were apartments where up to 70 people received their cards. We
   attempted to verify the evidence submitted with 307 of these SSNs (SSA did not
   record evidence descriptions in MES for the remaining 62 SSN applications). Of
   those reviewed, INS reported that 289 (94 percent) of the documents presented to
   SSA personnel were invalid. In fact, some of the SSN applicants in this case used
   copies of the same blank counterfeit I-94 and filled in different identifying
   information. Even more disturbing is that between April 1, 1998, and
   September 30, 1999, SSA sent another 1,303 SSN cards to these addresses. We
   have not attempted to verify the validity of the evidence submitted with these SSNs.
   However, given the high error rate (94 percent) of those previously sent to these
   addresses, we believe many of these SSNs also may have been assigned as a
   result of fraudulent documents. We have referred this case to our Office of
   Investigations.

�	 145 SSN Applicants Presented Invalid Documents. During our audit period, SSA
   sent original SSN cards to 198 individuals, most of whom claimed to be
   non-immigrants, at 11 locations in a large metropolitan area on the east coast.
   Again, several of these locations were apartments where up to 32 people received
   their SSN cards. We attempted to verify the evidence submitted with 150 of the
   SSNs (SSA did not record adequate evidence descriptions in MES for the remaining
   48 SSN applications.) Of those reviewed, INS reported that 145 (97 percent) of the
   documents presented to SSA were invalid. SSA assigned an additional 191 SSNs
   to these addresses during a subsequent 18-month period.

�	 Large Religious Organization Received SSNs Obtained With Invalid Documents.
   One address in a southern State, the headquarters of a large religious organization,
   received 79 SSNs during our audit period. INS could not determine the admission
   class for 20 of these individuals and the evidence descriptions for another
   5 applications were not sufficient for us to verify. However, of the remaining 54, INS
   reported that 20 (37 percent) of the individuals either had (1) no INS record when
   they applied for a SSN (that is, they were not in the country legally) or (2) entered
   the country as a visitor not authorized to work. Contrary to INS records, the I-94s
   these individuals presented to SSA contained admission classes stating they were
   religious workers authorized to work. As such, we assumed the documents were not
   authentic. SSA sent an additional 179 SSN cards to this address during a
   subsequent 18-month period.

Immigrant Applicants

An immigrant is an alien who has been lawfully afforded the privilege of residing
permanently in the United States. In general, INS issues lawfully admitted for
permanent residence (LAPR) aliens I-551s, Permanent Resident Cards, commonly
referred to as “green cards.” The I-551 contains a picture of the LAPR and several
other security features, including a fingerprint and a unique alien registration number.


                                            10
INS also frequently issues temporary I-551s as evidence of immigrant status until
permanent cards are received. As with non-immigrants, this temporary document is
typically just a stamp in the alien’s passport or on an I-94. Additionally, on temporary
I-551s, the responsible INS agent writes the alien registration number.

                                          Exhibit 2: I-551 “Permanent Resident Card”

Although SSA has a mechanism
intended to verify the validity of the
temporary and permanent I-551s, the
tool has significant limitations that
negate its usefulness. Specifically, all
SSA FOs have on-line access to a
database within INS’ SAVE system.
With this database, FOs can enter an
alien’s registration number and
theoretically determine whether the information alleged by the SSN applicant is valid.
However, the system is not a real-time resource. Thus, for many immigrants applying
for SSNs, SSA personnel must rely on visual verification to determine the validity of the
documents. As shown in the following examples, this visual verification is not always
sufficient to detect instances where applicants fabricated INS documentation to secure
SSNs.

�	 In a small town in a southern State, we identified three Post Office boxes to which
   SSA sent 43 SSN cards during our audit period. Of these, INS determined that
   42 (98 percent) of the documents presented by these individuals were not valid.
   Specifically, INS never issued 41 of the alien registration numbers the individuals
   claimed. For the remaining individual, SSA only recorded the I-94 number as an
   evidence description. INS found no record of this I-94 number or the individual’s
   entry into the United States. During a subsequent 18-month period, SSA issued 90
   additional SSN cards to these Post Office boxes. Although we have not verified the
   validity of the evidence submitted with these applications, given the high error rate
   (98 percent) of those previously sent to these addresses, we believe many of these
   SSNs may have been assigned as a result of fraudulent documents. Our Office of
   Investigations is reviewing this case.

�	 SSA sent 34 original SSN cards to two addresses in a northern city. All of the
   individuals presented documents alleging LAPR status. Nevertheless, INS
   information indicates that documents submitted by 33 (97 percent) of the individuals
   were invalid. Specifically, INS had not issued 32 of the alien registration numbers
   shown on these individuals’ I-551s. Additionally, one applicant’s I-551 listed an alien
   registration number that INS records indicate actually belongs to another person.
   SSA issued an additional 66 SSN cards to these addresses between April 1, 1998,
   and September 30, 1999. Our Office of Investigations is reviewing this case.




                                            11
�	 To 1 address on the east coast, SSA issued 34 SSN cards over the audit period.
   SSA personnel did not record an adequate description of the evidence presented
   with one application. However, we attempted to verify documents submitted with the
   remaining 33 SSN applications. Of these, INS data indicated that all (100 percent)
   were obtained with invalid documents. INS had never issued 2 of the alien
   registration numbers and 31 actually belonged to other people. Our Office of
   Investigations conducted a preliminary examination of this address. It is located at a
   commercial facility that rents mailboxes. Unfortunately, when we detected the fraud,
   the holders of the box no longer rented the mailbox and could not be located. SSA
   has issued no other SSN cards to this address.

Refugee/Parolee Service Organizations

A refugee is a person who is outside his or her country of nationality and is unable or
unwilling to return to that country because of persecution or a well-founded fear of
persecution. A parolee is an alien, who appears to be inadmissible to the inspecting
INS officer, but is allowed to enter the United States under emergency conditions or
when the alien’s entry is determined to be in the public interest. Although parolees are
required to leave when the conditions supporting their parole cease to exist, they may
sometimes adjust their immigration status.

Of the 3,557 SSN applications we reviewed, 2,504 (70 percent) of the individuals
presented evidentiary documents alleging refugee or parolee status. SSA issued the
resulting SSN cards to 30 addresses (an average of 83 cards per address). Through
research, we determined that 28 of these addresses were the offices of charitable
organizations (to which SSA sent 2,475 SSNs) that provide assistance to refugees and
parolees when they enter the United States. These organizations help
refugees/parolees in obtaining necessary documents (for example, INS documents,
SSNs) and in finding employment and housing. Additionally, because many newly
arrived refugees/parolees do not have permanent addresses, the organizations receive
mail on their behalf.

Although 2,397 (97 percent) of the 2,475 SSN cards sent to these Agencies were based
on valid documentation, 78 (3 percent) were not. Additionally, we noted that SSA
personnel issued another 122 cards for parolees who had not obtained the employment
authorization necessary to qualify for an unrestricted SSN card. SSA policies state that
employment authorization for parolees, if given, must be shown on an employment
authorization document (EAD). However, in these 122 instances, SSA issued work
authorized SSN cards even though INS never granted the applicants such permission.
In total, SSA assigned 200 SSNs to refugees and parolees in error.




                                           12
Non-existent Children

SSA sent 56 SSN cards to non-existent children at 7 of the addresses in our sample. In
support of their SSN applications, the “parents” or “guardians” of these purported
children presented birth certificates, which the relevant States reported were not valid.
In 47 (84 percent) of the 56 cases, the applicants presented birth certificates from
States other than the State in which they were applying for the SSNs. We believe a
contributing factor in the success of these criminals in obtaining SSNs is that FO
personnel were less familiar with the appearance of birth certificates from States other
than their own.
                                               Exhibit 3: Birth Certificate

Two of the 7 addresses were co-located

in 1 major city, and received 20 and 30

of the SSN cards, respectively, for non-

existent children. Our Office of

Investigations is examining this case and

has talked with several of the suspected

perpetrators. In general, several

individuals posed as the mothers of

these 50 non-existent children and

presented counterfeit birth certificates to

SSA personnel as evidence. In

43 (86 percent) of the 50 cases, the birth

certificates were from other States.

Although in total they used 12 different

aliases, 2 names were used as the

mothers of 32 children. MES has no

mechanism to detect and prevent the assignment of SSNs when “parents” claim to have

had an improbably large number of children. However, an SSA workgroup established

in response to our MAR is attempting to implement such a control.


Employee Fraud


Although both of these cases were detected through other means, 2 SSA employees
inappropriately processed 39 SSN applications and had the SSN cards sent to 3 of the
addresses in our sample. Of the 16 SSN applications we reviewed, the evidentiary
documents purportedly submitted with all of the applications were invalid. We could not
review the remaining 23 SSNs these employees processed because they did not record
adequate evidence descriptions.

Our Office of Investigations examined these cases and referred both to the respective
United States Attorneys for criminal prosecution. The first employee voluntarily
resigned after the United States Attorney declined to prosecute. However, the United
States Attorney sought prosecution of the second SSA employee for conspiracy, mail
fraud, selling SSN cards, and bribery. The grand jury indictment said the employee sold


                                           13
more than 300 SSN cards for as much as $1,400 each during a 3-year period. The
employee subsequently entered a guilty plea to one count of bribery. On
October 18, 1999, the employee was sentenced to 12 months incarceration, ordered to
serve 36 months supervised release, and ordered to pay a $100 special assessment
fee. The employee had previously forfeited to the Government $12,400 in cash he
accepted as a bribe to fraudulently process SSN applications.

Although these employees have been identified and removed from their positions at
SSA, the SSNs they assigned are still in circulation. In fact, the number holders have
used the 16 SSNs that we reviewed to accumulate $186,290 in earnings since 1997.

How Are Fraudulent Documents Slipping Through the System?

The occurrences of improperly attained SSNs cited in this report indicate significant
weaknesses within SSA’s document verification process. To address these
weaknesses and realistically reduce the fraudulent attainment and use of SSNs, SSA
must have effective front-end controls to identify counterfeit documents. Additionally,
SSA must create an environment in which employees are encouraged and supported in
their fraud prevention and detection efforts.

Unfortunately, as illustrated in the following excerpt from a New York Times,
March 9, 2000, article, counterfeit identity documents are all too easy to obtain.

        . . . right now the route to work in the United States is fairly smooth.
        One reason is that employment laws are easy for illegal immigrants
        to evade. Workers are required to offer proof of eligibility — a
        Social Security card and a picture ID. But counterfeits are easily
        purchased for $60 to $80 in this city’s [Chicago, Illinois] immigrant
        neighborhoods, a favorite being a rose-colored resident-alien card,
        which two immigrants showed to this reporter.

        The laminated cards displayed photographs that were accurate but
        fingerprints the workers said were not theirs. “The birth date isn’t
        mine either, or the signature, although the name is right,” said
        Angel Hernandez Lopez, a 25-year-old Mexican. “For $80, they do
        everything,” he said of the counterfeiters.

We acknowledge that SSA has some tools with which to detect counterfeit documents
(that is, black lights, SAVE). However, these mechanisms are not always sufficient.
Based on our observations at SSA FOs and our analysis of the selected SSNs, we
identified the following vulnerabilities that may have resulted in the acceptance of invalid
evidentiary documents.

�	 SSA employees are not adequately equipped to verify the validity of evidentiary
   documents.




                                             14
�	 MES controls do not prevent the assignment of SSNs in certain suspect
   circumstances.

�	 SSA’s emphasis on customer service discourages personnel from employing
   security measures that might detect fraudulent documents.

Better Tools Needed to Verify Evidentiary Documents

As evidenced by the cases cited in this report, the tools SSA has in place to detect
counterfeit documents submitted with SSN applications are not effective. Although the
tools include black lights, document guides and INS’ SAVE system, much of the
verification responsibility falls to FO personnel, who must visually determine the validity
of the documents. Despite the training provided these employees, the quality of many
counterfeit documents has become too good to visually detect. We are encouraged by
the initiatives SSA has planned (for example, on-line access to State Bureau of Vital
Statistics data, Enumeration at Entry, access to INS’ NIIS). However, some of these
initiatives will take several years to implement.

Additionally, despite its presumable value, INS’ SAVE program has significant
limitations that negate its usefulness. SSA’s use of SAVE is intended to provide a
method for personnel to verify certain INS documents presented as evidence of lawful
immigration status or work authority. However, the system is not a real-time resource
and does not provide verification of all INS documents. INS officials acknowledge there
is often a significant time lapse between the time an alien enters the country and the
time that individual’s information is available via SAVE. Because aliens believe they
need a SSN to work in the United States, most are anxious to apply for and receive a
number soon after entering the country. Therefore, SSA personnel must rely on visual
verification to determine the validity of alien documentation. As stated previously, the
technological advances available to create fraudulent documents exceed the advances
in visual verification, often proving visual verification unreliable.

SAVE also does not provide an online method of verifying INS documents provided by
non-immigrants who are temporarily visiting the United States and are not issued an
employment authorization document. SSA is working with INS to establish online
access to the Agency’s NIIS program, which will allow FO personnel to verify
information alleged by non-immigrants. However, we suspect SSA will experience
similar data input delays with NIIS as the Agency encounters with SAVE. Unfortunately,
SSA cannot dictate the speed at which INS enters alien data in its systems.




                                            15
Better System Controls Needed

The cases cited in our report illustrate several important control weaknesses that exist
within SSA’s enumeration system. Specifically, MES does not detect and interrupt SSN
assignment when (1) multiple SSN cards are sent to a common address and (2) the
cumulative number of SSN applications made by a “parent” on behalf of his or her
children exceeds a reasonable number. In response to our MAR, SSA established a
workgroup whose mission was to determine potential enhancements that could be
made to MES that would address these circumstances. We met with the workgroup
and have reviewed their preliminary report. We support the group’s general
suggestions and encourage SSA to adopt these changes.

Fraud Prevention/Detection Needs More Emphasis

As we reported in our MAR, we recognize the sensitive balance SSA must maintain
between providing “World Class Service” and ensuring enforcement of its “Zero
Tolerance for Fraud” goals. We also acknowledge the two goals are not mutually
exclusive. However, we believe SSA has established an environment in which
providing quick service to its customers sometimes takes precedent over preventing
and detecting fraud. Additionally, we believe that the implementation of these two goals
has sent contrasting messages to SSA employees, especially in the FOs.

SSA often measures its FOs’ performance in terms of customer service. For example,
in its Fiscal Year 2000 Annual Performance Plan, SSA established the following
performance indicators that, among other Agency programs, relate to the processing of
SSNs.

�	 Percent of SSA’s core business customers rating SSA’s overall service as excellent,
   very good or good — 88 percent;

�   Percent of public with an appointment waiting 10 minutes or less — 85 percent.

�   Percent of public without an appointment waiting 30 minutes or less — 70 percent.

�	 Percent of original and replacement SSN cards issued within 5 days of receiving all
   necessary documentation — 97 percent.

The Agency also established a performance indicator that measures the Percent of
Social Security numbers issued accurately — 99.8 percent. However, in establishing its
success in meeting this goal, the Agency does not test the validity of evidence
submitted with SSN applications. Rather, the Agency measures whether (1) multiple
SSNs were assigned to the same person without being cross-referenced, (2) one SSN
was assigned to multiple individuals, and (3) the applications were entered correctly into
MES. Although important, we believe these measures are far from comprehensive.




                                            16
Although we recognize the public would not be tolerant if customer service was not a
top priority, we also believe the Agency has a duty to the public to ensure the integrity of
the SSNs it assigns and the programs it manages. Given the increasing number of
identity fraud crimes that are reported every day, we believe the public would
comprehend the necessity of verifying certain documents (for example, INS documents,
out of State birth certificates), even if it did result in a 1 and 2 month delay in receiving
their SSN. Future initiatives the Agency plans to implement (that is, Enumeration at
Entry) may make this delay a reality for some applicants regardless, especially
considering the amount of time it currently takes INS to enter alien data to the same
systems it will use to provide enumeration information to SSA.

We understand this philosophy would represent a culture change for the Agency, and
the implementation of these changes might affect workload. Nevertheless, we believe
that to responsibly address the identity fraud and SSN misuse issues, SSA must adopt
strong security measures. Accordingly, we believe the investment will be worthwhile.




                                             17
 CONCLUSIONS AND RECOMMENDATIONS


As we outlined in our MAR, we believe SSA must make both philosophical and
procedural changes to ensure the integrity of the enumeration function. We recognize
that these recommendations may impact the amount of time necessary to process
original SSN applications. Nevertheless, to fully address the issues of fraudulent SSN
attainment and use, we believe the Agency needs to implement these changes.

We recommend that SSA:

1.	 Obtain independent verification from the issuing Agency for all alien evidentiary
    documents before approving the respective SSN applications, until the Enumeration
    at Entry program is implemented.

2.	 Accelerate negotiations with the INS and the State Department to implement the
    Enumeration at Entry program. Once implemented, all non-citizens should be
    required to obtain their SSNs by applying at one of these Agencies.

3.	 Give credit for fraud detection and development in measuring the performance of
    FOs and their employees.

4.	 Continue efforts and establish an implementation date for planned system controls
    that will interrupt SSN assignment when multiple cards are mailed to common
    addresses not previously determined to be legitimate recipients (for example,
    charitable organizations) and/or when parents claim to have had an improbably large
    number of children.

5.	 Study the impact of requiring SSN applicants to either provide an actual street
    address (that is, do not accept Post Office boxes) or pick up their SSN at the closest
    SSA FO.

6.	 Propose legislation that disqualifies individuals who improperly attain SSNs from
    receiving work credits for periods that they were not authorized to work or reside in
    the United States.

We included Recommendations 1 and 2 in our previous MAR. We are including them
again in this report because we either disagree with SSA’s final response to the
recommendation or believe SSA should repeat the action. Our justifications are
presented in the following paragraphs.

In response to Recommendation 1, SSA stated that obtaining independent verification
of every document presented by an alien before assigning an SSN is too burdensome
and would delay the receipt of SSNs for most legitimate applicants. Instead, SSA


                                            18
stated it would work with INS to reduce the delay in verifying the documents on-line.
SSA stated that its document verification procedures were adequate. We believe SSA
should reconsider its response to this Recommendation. We recognize this corrective
action would increase SSA and INS’ workloads and result in the delay of SSN cards for
many legitimate applicants. Unfortunately, the Agency has presented no alternative
remedy that could timely and adequately address the issue of fraudulent alien
documents presented with SSN applications. Additionally, we believe a delay in the
receipt of SSNs for many noncitizens will be inevitable under the Enumeration at Entry
program, unless INS makes extensive changes in its processes. In summary, based on
the results of this review, we continue to believe the vulnerabilities within SSA’s
enumeration system are significant. As such, we believe this investment is essential to
ensure the future integrity of the SSN and Social Security system.

In response to Recommendation 2, on August 13, 1999, the Commissioner of SSA
issued a letter to the Commissioner of INS requesting INS’ cooperation in implementing
the Enumeration at Entry program. SSA’s Commissioner outlined the magnitude of the
issue and encouraged the INS Commissioner to execute the necessary Memorandum
of Understanding. To our knowledge, INS has not responded to the letter and has not
signed the Memorandum of Understanding.

AGENCY COMMENTS

In its response to our report, SSA stated that the Agency shared our strong commitment
to eliminating opportunities for SSN fraud. SSA pointed out that as a result of OIG’s
1999 MAR entitled Using Social Security Numbers to Commit Fraud, the Agency had
already undertaken a number of initiatives to strengthen its SSN fraud prevention
measures. SSA stated that it viewed the OIG findings very seriously and agreed the
Agency must remain highly vigilant in situations where multiple SSN cards are issued to
a common address. However, the Agency did caution readers of this report that it
would be inappropriate to extrapolate the findings to the larger universe of SSN card
recipients. Specifically, SSA pointed out that the 90 addresses reviewed were not
randomly selected and some were specifically reviewed because of the appearance of
suspect circumstances.

To combat the concerns raised in this report regarding evidentiary documentation, SSA
stated that it is developing a long-term solution. Although the Agency agrees with the
intent of our recommendations, for the long-term SSA believes systems enhancements,
rather than independent verifications, will provide the most benefit. SSA’s comments on
specific report recommendations are as follows.

SSA agreed to accelerate negotiations with INS and the State Department to implement
the Enumeration at Entry program (Recommendation 2). In fact, SSA, INS, and the
Office of Management and Budget arranged a meeting for June 16, 2000, to resolve
any remaining concerns INS has so that implementation may occur. SSA also agreed
to continue efforts and establish an implementation date for planned system
improvements that interrupt SSN assignment in certain suspect circumstances


                                          19
(Recommendation 4). Due to the nature of the database building and revision that will
be required, SSA expects to have these controls in place by April 2002.

SSA is also developing better methods to track fraud detection and development
activities that will support establishing workload credit for this activity
(Recommendation 3). The Allegation Management System (AMS) will track fraud
referrals and will provide accurate workload counts that are needed, in conjunction with
future work sampling, to establish time spent on development of fraud cases. SSA
plans to implement AMS in October 2001.

SSA disagreed with our recommendation to obtain independent verification from the
issuing Agency for all alien evidentiary documents before approving the respective SSN
applications, until such time as the Enumeration at Entry program is fully implemented
(Recommendation 1). SSA stated that the Agency already verifies with INS all
documents for noncitizens applying for SSNs, except documents for those who have
been in the country less than 30 days. The Agency also responded that while it is
committed to reducing fraud, SSA has an obligation to newly-arrived citizens who have
legal authority to work. SSA believes that delaying approval of their SSN applications
for 1 to 2 months until INS can verify their applications would result in a grave disservice
to these individuals. Instead, the Agency stated that it would continue to work with INS
to shorten the lag time needed to update INS systems and to have INS collect
enumeration data. Additionally, SSA recommended that OIG conduct a statistically-
valid follow-up study focusing on the entire population of aliens issued original SSNs.

SSA also disagreed with our recommendation that the Agency study the impact of
requiring SSN applicants to either provide an actual street address (that is, do not
accept Post Office boxes) or pick up their SSN at the closest FO (Recommendation 5).
SSA stated that it had analyzed the issue and concluded that with the postal
requirement in many smaller communities that all residences have a postal box,
implementation of this recommendation would be targeting and treating unfairly
legitimate users of post office boxes. Additionally, SSA responded that, to prevent
fraudulent activity relating to post office boxes, in 1998 the Postal Service began
requiring photo identification of individuals applying for the boxes. Additionally, in
October 1999, the Postal Service implemented a regulation requiring an individual
applying to receive mail at a commercial mail receiving agency (CMRA) to provide two
forms of identification, one of which must include a photograph of the applicant.

Finally, SSA disagreed with our recommendation to propose legislation that disqualifies
individuals who improperly attain SSNs from receiving work credits for periods they
were not authorized to work or reside in the United States (Recommendation 6). SSA
stated that the legislative proposal would be extremely difficult to administer because
SSA cannot, on its own determine, when or if an individual’s immigration or work status
has changed. SSA believed that these determinations could be made only by INS or in
a court.




                                             20
SSA also provided technical comments that were considered and incorporated, where
appropriate, in this final report. The full text of SSA’s comments is included in
Appendix D.

OIG RESPONSE

We are encouraged by the actions SSA has planned to address three of the six
recommendations (Recommendations 2, 3, and 4). Additionally, although the Agency
responded that it disagreed with Recommendation 5, we believe SSA already
completed the proposed action. Specifically, SSA studied the impact of requiring SSN
applicants to either provide an actual street address (that is, do not accept Post Office
boxes) or pick up their SSN cards at the closest SSA FO. The results of the Agency’s
analysis indicate that such an action would neither be practical nor beneficial, especially
given the Postal Service’s recent regulations regarding identity documents required to
rent a Post Office box. We accept SSA’s conclusion and believe the Agency has
adequately responded to our recommendation.

Although we acknowledge SSA’s concerns with Recommendations 1 and 6, we do not
agree with the Agency’s positions. We continue to believe the vulnerability within SSA’s
enumeration process regarding the possible acceptance of counterfeit alien documents
is significant enough to warrant the verification of such documents. Additionally, we
believe a delay in the receipt of SSNs for many noncitizens will be inevitable under the
Enumeration at Entry program, unless INS makes extensive changes in its processes.
In its response, SSA requested that the OIG conduct a statistically valid follow-up study
to determine the extent of potential fraud in the entire population of SSNs issued to
aliens. We believe SSA’s focus should be on developing a corrective action plan to
address this fraud vulnerability. A study would complement a corrective action plan only
if it addressed specific weaknesses in its process rather than solely determining the
extent of potential fraud. In our view, the recommendations included in this report and
our previous MAR15 satisfactorily address the specific weaknesses identified in SSA’s
procedures for verifying evidentiary documents. As such, another study would be
redundant. Once again, we encourage SSA to reconsider its response to
Recommendation 1.

We also disagree that the implementation of our legislative proposal would be extremely
difficult to administer. It is our contention that it would be the responsibility of the
number holder to amend their SSN record if he or she subsequently became eligible to
reside and/or work in the United States. In summary, we believe that if the holder of a
fraudulently attained SSN applies for SSA benefits, he or she should be required to
prove that they have sufficient work credits as a legal worker in the United States before
those benefits are approved. We also encourage SSA to reconsider its response to
Recommendation 6.

15
     Using Social Security Numbers to Commit Fraud (A-08-99-42002), May 1999.




                                                  21
APPENDICES

                                                                            APPENDIX A



      EVIDENTIARY DOCUMENTS SUBMITTED

        WITH ORIGINAL SOCIAL SECURITY

            NUMBER APPLICATIONS


Evidence of Age: A birth certificate issued by a State or local Bureau of Vital Statistics,
which was established before the applicant reached 5 years of age. The Social Security
Administration (SSA) also accepts foreign birth certificates, passports, school records,
or military records.1

Evidence of Identity: An identity document submitted as evidence must be recently
issued and provide information so field office personnel can compare its contents with
SS-5 data and/or with the applicant's physical appearance. Acceptable identity
documents are driver's licenses, passports, school identification cards, marriage or
divorce certificates, or military records. 2

Evidence of United States Citizenship or Work Authorized Lawful Alien Status:
Examples of documents establishing United States citizenship are State or local birth
certificates, United States passports, and certificates of naturalization.

According to the SSA’s POMS RM 203.400, applicants who allege a foreign place of
birth and/or who are not United States citizens must submit evidence supporting either
lawful alien status and/or the United States Immigration and Naturalization Service
(INS)-granted work authorization. INS issues numerous documents that indicate the
status and class of aliens. For example, the I-551, Permanent Resident Card, issued by
INS establishes the alien as one who was lawfully admitted for permanent residence.
An example of an INS document issued to support the lawful alien status for a student,
is the I-94, Arrival/Departure Record, and the I-20 form, Certificate for Eligibility for
Nonimmigrant Student Status, which shows the “F-1” (student) class of admission for a
student. Also, INS issues numerous documents, which are acceptable as evidence of
employment authorization. Some examples of documents that establish work
authorization for non-immigrants are the I-94 that has the alien's classification
displayed; the "employment authorization" that is shown on an I-94 for a refugee; the
annotation on the Form I-20 for certain F-1 students; or the INS Employment
Authorization Document.


1
    Program Operations Manual System (POMS) section RM 00203.110.
2
    POMS section RM 00203.200.
                                                                                           APPENDIX B



       SAMPLE SELECTION METHODOLOGY

             AND REVIEW STEPS


We selected 90 addresses to which the Social Security Administration (SSA) sent
5,385 Social Security numbers (SSNs) between September 1, 1997, and
February 28, 1998. In selecting this sample, we obtained a data extract from SSA’s
Modernized Enumeration System (MES) Transaction History File and identified
addresses to which SSA sent 10 or more SSNs during the 6-month audit period. From
the resulting universe of 1,448 addresses and 35,213 SSNs, we then selected the
90 addresses. In doing so, we attempted to choose addresses that included a cross
section of single-family dwellings, apartments, Post Office boxes, businesses,
universities, and service organizations (for example, refugee assistance groups).
Additionally, we attempted to select a cross section of addresses to which SSA sent
SSN cards for immigrants, non-immigrants, and United States born children. Finally, in
some cases, we selected the addresses because there appeared to be suspect
circumstances (for example, multiple SSN cards for newborn children going to the same
address).

To verify the evidence submitted with SSN applications, we needed either copies or an
adequate description of the documents presented. SSA policy does not require the
retention of such documents; therefore, we were required to rely on the evidence
descriptions recorded by field office personnel. Unfortunately, SSA personnel did not
record evidence descriptions in the applicable field within MES for approximately
59 percent of the 5,385 SSNs sent to the selected addresses. However, in many cases
field office personnel documented the information on the actual SSN application. SSA
maintains copies of these applications in its record storage facility in
Boyers, Pennsylvania.

Due to time constraints, we did not review all 5,385 SSN applications. Instead, we
selected a sample of 3,927 SSNs SSA sent to the 90 addresses. In doing so, we
selected a cross section of applications, including those sent to apartments, Post Office
boxes, single-family residences, charitable organizations. Additionally, we selected
applications submitted by aliens and United States citizens. However, we found the
evidence descriptions field office personnel recorded on 370 of these applications were
not sufficient for us to retrospectively determine the validity of the evidence.1 As a

1
  These 370 applications (9 percent of the 3,927 originally selected) are not indicative of the total number
of SSNs within our sample that had inadequate evidence descriptions. Specifically, in selecting the 3,927
SSNs, we performed a cursory review to determine whether SSA had documented adequate evidence
descriptions either in MES or on the SS-5s. We attempted to select SSNs that had adequate evidence
descriptions. Nevertheless, these 370 were chosen.


                                                    B-1
result, we further refined our sample and chose the remaining 3,557 SSN applications
for our detailed review.

For these 3,557 original SSN applications, we obtained independent verifications of the
evidentiary documents from the issuing Agencies. Because SSA does not maintain
copies of evidentiary documents presented with SSN applications, we provided the
issuing agencies with document descriptions recorded by SSA personnel in either MES
or on the SSN application. We did not determine the reliability of information provided
by INS, the State Department or respective State Bureaus of Vital Statistics. We
performed the following steps.

�	 We compared the information contained in INS’ SAVE system with information the
   applicant provided.

�	 For non-citizens without alien registration number, we sent INS a listing of the
   individuals’ names, dates of birth, dates of SSN applications, countries of origin and
   descriptions of the evidence presented. With this information, INS verified the
   individuals’ status in the United States at the time of their SSN applications.

�	 For United States born children, we contacted the respective State Bureau of Vital
   Statistics to obtain either a copy of the applicant’s birth certificate or a birth certificate
   verification. 2

�	 For certain applications, we contacted the United States Department of State to
   verify Reports of Birth Abroad.




2
 Rather than providing us a copy of every birth certificate, some States elected to verify whether the birth
certificate information we provided for the applicants was accurate.




                                                    B-2
                                                APPENDIX C


                     FIELD OFFICES VISITED


Tucker, Georgia


Atlanta (Downtown), Georgia


LaGrange, Georgia


Miami (Little Havana), Florida


Miami (Central), Florida


Miami (South), Florida


Miami Beach, Florida


Hollywood, California


San Francisco (Chinatown), California


San Francisco (Civic Center), California


Los Angeles (University Village), California

                   APPENDIX D


AGENCY COMMENTS





       D-1

COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
"REVIEW OF THE SOCIAL SECURITY ADMINISTRATION'S PROCEDURES FOR
VERIFYING EVIDENTIARY DOCUMENTS SUBMITTED WITH ORIGINAL SOCIAL
SECURITY NUMBER APPLICATIONS" (A-08-98-41009)


We appreciate OIG's efforts in conducting this review. We share
the OIG’s strong commitment to eliminating opportunities for
Social Security Number (SSN) fraud. As a result of the 1999 OIG
Management Advisory Report (MAR), "Using Social Security Numbers
to Commit Fraud"(A-08-99-42002), we have already undertaken a
number of initiatives to strengthen our SSN fraud prevention
measures, many of which are acknowledged in this audit report.

It is important to note we issued approximately 1.14 million
original SSN cards to aliens for work and non-work purposes in
FY 1998 and approximately 1.16 million in FY 1999. For the
purpose of this study, the OIG focused on 3,557 of the 5,385
SSNs sent to 90 of the 1,448 addresses (to which 10 or more SSN
cards were sent) from September 1, 1997 through February 28,
1998, and found that 28% (999) were based on
invalid/inappropriate evidentiary documents.

Due to the focus on such a small subset, it is important to note
that it would be inappropriate for readers of this report to
attempt to extrapolate the OIG’s findings to the larger universe
of SSN card recipients. The 90 addresses reviewed were not
randomly selected and some were specifically reviewed because of
the appearance of suspect circumstances. The OIG acknowledges
the sample reviewed was neither randomly selected nor indicative
of the percentage of possible errors within the universe of the
2.66 million original SSN cards assigned during the 6-month
audit period.

Nevertheless, we view the OIG’s findings very seriously and
agree we must remain highly vigilant in situations where
multiple SSN cards are issued to a common address. Although this
report does not provide any evidence that the questionably
obtained SSNs had been used for fraudulent purposes, we are as
committed to preventing fraudulent SSN activity as we are to
providing superior customer service to our customers. In fact,
with the assistance of the OIG, SSA implemented the
Comprehensive Integrity Review Process (CIRP) on March 26, 1999.
CIRP issues an alert for field office review when five or more
SSN cards are sent to the same mailing address during a five-
week period. Approximately 5,000 alerts are generated each
month. Since the inception of the program, 658 alerts have been


                               D-2
reviewed and forwarded as "potential fraud" cases to the OIG.
It would be useful if the OIG could periodically summarize the
results of investigations of these cases. This information
would then be used to determine if changes of procedures are
appropriate and given to SSA staff as feedback on their
referrals.

To combat the concerns raised in this report regarding
evidentiary documentation, SSA is developing a long-term
solution. Although SSA agrees with the intent of the OIG’s
recommendations, for the long-term SSA believes systems
enhancements, rather than independent verifications, will
provide the most benefit. To this end, we will have the systems
controls OIG is proposing in this report in place by April,
2002.

Our comments on the report recommendations and content follow.

Recommendation 1

Obtain independent verification from the issuing Agency for all
alien evidentiary documents before approving the respective SSN
applications, until the Enumeration at Entry program is
implemented.

Comment

We continue to disagree with this recommendation. As stated in
our response to the 1999 MAR, SSA already verifies with the
Immigration and Naturalization Service (INS) all documents for
noncitizens applying for SSNs, except documents for those
noncitizens who have been in the country less than 30 days.
While SSA is committed to reducing fraud, we also have an
obligation to newly-arrived noncitizens who have legal authority
to work. Delaying approval of their SSN applications for one to
two months until INS can manually verify their applications
would result in a grave disservice to these individuals.

SSA will continue to work with INS to shorten the lag time
needed to update INS' systems and to have INS collect
enumeration data for noncitizens as part of the immigration
process. We are working with INS to verify nonimmigrant data
through the automated aspect of the Systematic Alien
Verification for Entitlements (SAVE) process. In addition, we
have already begun a pilot in the New York region to automate
the secondary (or "paper") aspect of SAVE. As discussed in our
response to recommendation #2, we wrote to INS regarding our


                               D-3
concerns with the SAVE process on August 13, 1999 and will be
participating in a meeting with OMB and INS representatives to
resolve any remaining concerns so that implementation planning
can proceed.

In addition to working with INS, we believe improving our
automation exchanges could enhance fraud prevention in this
area. As discussed in our response to recommendation #4, SSA
will have systems controls in place by April, 2002 that will
interrupt SSN issuance when multiple cards are mailed to common
addresses and when parents claim to have had an improbably large
number of children.

Since the cases reviewed during the OIG’s study were not
randomly selected, and therefore the results non-generalizable
to the entire population of aliens issued SSNs, neither SSA nor
OIG have sufficient data to determine the extent of potential
fraud in the full population that OIG’s recommendation would
affect. Therefore, we believe OIG should conduct a
statistically valid follow-up study focusing on the entire
population of aliens issued original SSNs. SSA would be pleased
to assist the OIG in designing such a comprehensive evaluation
that would quantify the extent of potential fraud in the alien
population.

Recommendation 2

Accelerate negotiations with the INS and the State Department to
implement the Enumeration at Entry program. Once implemented,
all non-citizens should be required to obtain their SSNs by
applying at one of these Agencies.

Comment

We agree that accelerated negotiations are necessary and SSA is
committed to the implementation of the Enumeration at Entry
program. On August 13, 1999 SSA released a letter (tab A) to
the Commissioner of INS detailing our concerns with the SAVE
process and urging swift movement on initiatives in this area.
As part of this letter SSA included a proposed Memorandum of
Understanding that the Commissioner of SSA had signed describing
both agency’s roles in an enumeration project and a framework
for cooperation to improve data sharing between the two
agencies.

In addition to ongoing staff discussion since then, SSA has
furnished information for OMB’s use in promoting this project


                               D-4
with INS. With SSA encouragement, OMB has arranged a meeting
for June 16, 2000 to include representatives from SSA as well as
INS. The purpose of the meeting is to resolve any remaining
concerns INS may have so that implementation planning may
proceed. We would welcome any assistance the OIG can provide in
supporting us with our continuing negotiations and bringing to
fruition any initiatives that may be agreed upon.

Recommendation 3

Give credit for fraud detection and development in measuring the
performance of field offices (FO) and their employees.

Comment

This recommendation does not appear to be directly related to
the audit findings on verifying evidentiary documents in the
enumeration process, but appears to relate to the apparent
conclusion that SSA should change its philosophy and culture
because OIG believes that in the current environment, providing
quick service sometimes takes precedence over preventing and
detecting fraud.

SSA’s culture firmly supports a balance of public service and
stewardship. Results from a 2-year study of SSA’s culture, with
more than 6,600 employees responding, show both a dedication to
public service and strong support for the importance of program
integrity. For example, 81 percent of respondents said that
having zero tolerance for program fraud and abuse is normal
practice in their offices today; 83 percent reported knowing
what is expected of them at work, and 75 percent agree that
customer satisfaction is a top priority.

Safeguarding the public’s investment in the programs we
administer is a primary responsibility of SSA. Virtually all of
the 40,000 employees who routinely interact with the public are
actively involved in the prevention and detection of
overpayments and fraudulent activities. One of the key duties
in the Claims Representative position description is: “Protects
the integrity of SSA programs through identification,
investigation, and resolution of potential program abuse
situations.” Other listed duties relate to program integrity
and support efforts to prevent fraud.

SSA is developing better methods to track fraud detection and
development activities that will support establishing workload
credit for this activity. The Allegation Management System


                               D-5
(AMS) will track fraud referrals and will provide the accurate
workload counts that are needed, in conjunction with future work
sampling, to establish the time spent on the development of
fraud cases. We plan to implement AMS in October 2001. In the
interim, an electronic Intranet form for fraud referral, the e-
8551, was implemented June 1, 2000, and provides multiple
benefits, including automating the referral process, providing a
means of automated feedback to employees on their fraud referral
efforts, making the fraud referral process more uniform and
providing a means of accountability for all parties via its
automated system of receipts, acknowledgements, and monthly
regional OIG status reports.   We are continuing to look for
means within the current MI system to assure the proper work
credit is provided for anti-fraud activities.

Recommendation 4

Continue efforts and establish an implementation date for
planned system controls that will interrupt SSN issuance when
multiple cards are mailed to common addresses that SSA has not
determined to be legitimate recipients (for example, charitable
organizations) and/or when parents claim to have had an
improbably large number of children.

Comment

We agree and are continuing our efforts to implement these
enhancements in the Modernized Enumeration System. Systems
controls that will interrupt SSN issuance when multiple cards
are mailed to common addresses and when parents claim to have
had an improbably large number of children are under
development; due to the nature of database building and revision
that will be required, SSA expects to have these controls in
place by
April, 2002. These systems controls are the final phase in the
systems plan we began last year for a wide range of measures to
prevent fraud prior to the issuance of an SSN when certain
suspicious characteristics are present. A phase scheduled for
earlier implementation--the systematic ability to recognize and
interrupt card issuance to certain parents whom SSA’s records
show as deceased or of improbable age to have children--is now
close to completion.

Recommendation 5




                               D-6
Study the impact of requiring SSN applicants to either provide
an actual street address (that is, do not accept Post Office
boxes) or pick up their SSN at the closest SSA FO.

Comment

We disagree. We have analyzed this issue and come to the
conclusion that with the postal requirement in many smaller
communities that all residences have a postal box, we would be
targeting and treating unfairly legitimate users of post office
boxes. Requiring these individuals to come into a FO would be
placing an undue hardship on these individuals, and adoption of
this proposal would have a significant impact in rural areas
where the closest FO may be very distant. For example, many
individuals living in Midwestern and Northwestern states might
have to travel hundreds of miles to reach their nearest FO or
contact station. Even for those individuals living in populous
areas of the country, a lack of reliable private or public
transportation, along with potential safety and home mailbox
security concerns, could cause difficulties.

The issue of the application for and usage of post office (PO)
boxes (whether located within a U.S. post office or at a
commercial mail receiving agency (CMRA)) is regulated by the
U.S. Postal Service. To prevent fraudulent activity relating to
PO boxes, the Postal Service began requiring photo
identification of individuals applying for PO boxes located
within post offices in 1998. In addition, the Postal Service
issued a final rule in the Federal Register on March 25, 1999
(effective October 26, 1999), requiring an individual applying
to receive mail at a CMRA to provide two forms of
identification, one of which must include a photograph of the
applicant. The postal service provides examples of acceptable
identification, including a valid drivers license, armed forces,
government or corporate identification card, passport or alien
registration card, or other credentials showing the applicant’s
signature and a serial number or similar information that is
traceable to the bearer (i.e., a current lease, mortgage, deed,
voter registration card or university identification card).
Recommendation 6

Propose legislation that disqualifies individuals who improperly
attain SSNs from receiving work credits for periods that they
were not authorized to work or reside in the United States.

Comment



                               D-7
This recommendation is similar to one contained in the OIG
report, "Review of Controls over Nonwork Social Security Numbers"
(A-08-97-41002; Audit No. 21997023). In that report OIG
recommended that SSA should propose legislation to prohibit the
crediting of nonwork earnings and related Quarters of Coverage
(QC) for purposes of benefit entitlement.

We disagreed with the earlier recommendation and our reasons for
disagreement have not changed. Since SSA does not routinely learn
of changes in a person's work authorization status after an SSN
has been assigned, an earnings report under a nonwork SSN does not
necessarily mean that unauthorized work was performed. The
legislative proposal OIG recommended earlier and is recommending
now would be extremely difficult to administer because SSA cannot
on its own determine when or if an individual’s immigration or
work status has changed. These determinations would have to be
made by the INS or a court. In addition, an individual’s status
may change at any time during a given year, thus necessitating
determining when in the year particular earnings were received, an
action SSA cannot accomplish from its annual earnings records.




                                D-8
                                                                             APPENDIX E


                OIG CONTACTS AND STAFF

                  ACKNOWLEDGEMENTS


OIG Contacts

   Gary A. Kramer, Director, Operational Audit Division
   (410) 965-9711

   Kimberly A. Byrd, Deputy Director, Enumeration
   (205) 801-1605

Acknowledgements

   Charles A. Lober, Senior Auditor

   William C. McMillan, Senior Auditor

   Kathy L. Youngblood, Senior Auditor

   Theresa Roberts, Auditor

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification
Number A-08-98-41009.
                        APPENDIX F


SSA ORGANIZATIONAL CHART

